CERTIFICATE OF SERVICE
NO. TBD
William S. Ritter, Jr.
Petitioner(s)
v.
John R. Tuttle et al.
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That 1 am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, 1 served the parties in the above captioned matter with the WILLIAM
S. Ritter, Jr. Petition for Writ of Certior ari, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
E. David Christine, Jr.
Monroe County District Attorney’s Office
7th & Monroe Streets
Stroudsburg, PA 18360-2190
(570)517-3052
dchristine@monroecountypa.gov
Counselfor John R. Tuttle et al.

Josh Shapiro
Attorney General
Commonwealth of Pennsylvania
Strawberry Square
Harrisburg, PA 17120
(717)787-3391 .
Counsel for John R. Tuttle et al.

m
Dan Abramovich
December 9, 2019
SCP Tracking: Ritter, Jr.-45 Dover Drive-Cover White

